Filed 06/19/2019

IN THE SUPERIOR COURT OF PENNSYLVANIA
EASTERN DISTRICT

U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1

v.

No. 1195 EDA 2019

(C.P. Chester County
No. 2018-04083-RC)

JAMES VINCENT UOTT A/K/A JAMES
LIOTT

:x
pi

c./;

Appellant

jr:

o
Ty -V -X

>,v

nr

ORDER
This appeal has been taken from the order entered on March 21, 2019,
which sustained

in part and overruled in

part Appellant's preliminary

objections.
An appeal properly lies only from a final order unless otherwise
permitted by rule or statute. McCutcheon v. Philadelphia Elec. Co., 788
A.2d 345 (Pa. 2002). "A final order is any order that disposes of all claims
and of all parties."

Pa.R.A.P. 341(b)(1).

Moreover, "Under Pa.R.A.P.

313(b), a collateral order is an order that 1) is separable from and collateral
to the main cause of action; 2) involves a right too important to be denied
review; and 3) presents a question that, if review is postponed until final
judgment in the case, the claim will be irreparably lost." In re Bridgeport
Fire Litigation, 51 A.3d 224, 230 n.8 (Pa. Super. 2012).
The March 21, 2019 order is not a final order and it does not satisfy
the elements of the collateral order doctrine.
Accordingly, the appeal at No. 1195 EDA 2019 is hereby QUASHED.

PER CURIAM

U.S, BANK NATIONAL ASSOCIATION, as Trustee : IN THE COURT
*
: CHESTBRCO^^pr*

for CVILCF Mortgage Loan Trust I
vs.

: CIVIL ACTION -EJ

i
JAMES VINCENT LIOTT, a/k/a James Liott

NO. 2018-04083-RC

Leon P, Haller, Esquire, Attorney for Plaintiff
Defendant, Pro se.
ORDER
AND NOW, this

30% day of

j 2019, upon

consideration of Defendant’s Preliminary Objections to Plaintiffs Complaint, Plaintiffs
Answer thereto, Defendant’s Preliminary Objections to Plaintiffs Answer and Plaintiffs
response thereto, it is hereby ORDERED and DECREED as follows:
1. Defendant’s Preliminary Objections to Plaintiffs Answer to Defendant’s Preliminary
Objections are OVERRULED;1 and
2. Defendant’s Preliminary Objection to Plaintiffs Complaint for lack of subject matter
jurisdiction is OVERRULED;2 and
3. Defendant’s Preliminary Objection to Plaintiffs Complaint for lack of proper service is
SUSTAINED and Plaintiff shall, within twenty (20) days of the date this Order is
docketed, properly serve the Complaint on Defendant. Defendant shall then have
twenty (20) days from the date of service to file his Answer.3
BY THE COURT:

]

Defendant argues that Plaintiffs Answer to his Preliminary Objections to the Complaint was
untimely. One of Defendant’s Objections to the Complaint raises lack of jurisdiction. As one
of the Objections was raised under Pa.R.C.P. 1028(a)(1), no response was required within the
standard twenty days. See; C.C.R.C.P. 1028(a)(2).
2018-04083-RC
2018-04083-RC

APPENDIX-A

\

'•
f

i

;!
r

i

2 Defendant argues that the underlying mortgage foreclosure action is on appeal and therefore,
the Court lacks subject matter jurisdiction over this ejectment action. However, Defendant’s
appeal to the Pennsylvania Superior Court was dismissed due to his failure to timely file his
brief. In addition, the Pennsylvania Supreme Court denied his Petition for Allowance of
Appeal as well as his Motion for Reconsideration.
3 Where service of process is defective, the remedy is to set aside the service. In such a case,
the action remains open and the court must allow the plaintiff an opportunity to attempt to
make proper service. City of Philadelphia v. Berman. 863 A.2d 156 (Pa. Cmwlth, 2004).
-2-

2018-04083-RC
2018 - 04 083-RC

Vw7
Type:

ORDER

Case Number:

2018-04083-RC

Case Title:

U S BANK NATIONAL ASSOCIATION (TRUSTEE) et al VS.
LIOTT, JAMES VINCENT
So Ordered

c^LJZ.Qt^
/s/ Jacqueline Cody

Electronically signed on 2019-03-21 09:14:49

page 3 of 3

2018-04083-RC
2018-04083-RC

V

*

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

U.S. BANK NATIONAL ASSOCIATION
: No. 600 MAL 2019
AS TRUSTEE FOR CVI LCF MORTGAGE:
LOAN TRUST 1,
Application for Reconsideration
Respondent

!

v.
JAMES VINCENT LIOTT a/k/a JAMES
LIOTT,
Petitioner

ORDER
PER CURIAM
AND NOW, this 1st day of October, 2020, the Application for Reconsideration is
£3
»

denied.

%

T?

f'O
CD
C5
O -H

■ !

•DtjS

~o

CSt%5

~:tj— '

A True^Co^Am^ Dreibelbis, Esquire
As

Attest: „
Deputy "Pfothonotary
Supreme Court of Pennsylvania

APPENDIX-B

m
o

riijtSBSaa by

: ™THEC0URT0Lfif®gW

U.S. BANK NATIONAL ASSOCIATION, as Trustee :
for CVI LCF Mortgage Loan Trust 1
: CHESTER COUNTY.. \
vs.

: CIVIL ACTION - EJECTMENT
.JAMES VINCENT LIOTT, a/k/a James Liott

: NO. 20I8-04083-RC

Leon P. Haller, Esquire, Attorney for Plaintiff
Defendant, Pro se.
OPINION
Defendant appeals from our Order dated March 20, 2019 and docketed March
21, 201'9 sustaining in part and overruling in part Defendant’s Preliminary Objections to
Plaintiffs Complaint. We submit this Opinion in accordance with Pa.R.A.P. 1925(a). We
respectfully request that the appeal be quashed as the Order at issue is not a final order pursuant
to Pa.R.A.P. 341, nor is it an interlocutory order appealable as of right pursuant to Pa.R.A.P.
311 or a collateral order pursuant to Pa.R.A.P. 313. In fact, the Superior Court issued a Rule to
Show Cause on May 21, 2019 requiring Defendant to demonstrate the basis of its jurisdiction.
Defendant was granted an extension of time until June 10, 2019 to respond. Should the Court
decide not to quash the appeal, here is our Opinion in support of our Order.
PROCEDURAL HISTORY
This is an action in ejectment based on a Sheriffs Deed dated March 13, 2018
and recorded on March 15, 2018 at book number 9711 and page number 1309. Defendant filec
his Preliminary Objections on May 14, 2018. Plaintiff filed its’response on January 23, 2019.
On January 30, 2019, Defendant filed his Preliminary Objections to Plaintiffs Answer.
Plaintiff responded on February 14, 2019. The Order at issue was dated March 20, 2019 anc
docketed March 21, 2019.

2018-04083-RC

APPENDIX-C

PM

DISCUSSION
Defendant raised three Preliminary Objections. One Objection asserted lack of
subject matter jurisdiction. Defendant based this Objection on the argument that the underlying
mortgage foreclosure action was on appeal and therefore, we had no jurisdiction over this
ejectment action. However, we noted that the appeal to the Superior Court was dismissed due to
Defendant’s failure to timely file his brief. In addition, his Petition for Allowance of Appeal to the
Pennsylvania Supreme Court was denied. Therefore, we overruled this Objection.
In his second Objection, Defendant argued that Plaintiffs Answer to his
Preliminary Objections was untimely.

However, we noted that since one of Defendant’s

Objections was raised under Pa.R.C.P. 1028 (a)(1), no response was required within the standard
twenty days. C.C.R.C.P. 1028(a)(2). Therefore, we also overruled this Objection.
Defendant’s final Objection was for lack of proper service. We sustained this
Objection and ordered Plaintiff, within twenty days, to properly serve the Complaint on
Defendant. We further ordered that Defendant shall then have twenty days from the date of
service to file his Answer. It appears that Plaintiff did, in fact, serve Defendant on April 10, 2019.
Also on April 10, 2019, Defendant filed another set of Preliminary Objections. Defendant then
filed the instant appeal on April 19, 2019. Also on April 19, 2019, Defendant apparently filed
another set of Preliminary Objections.
With regard to Defendant’s Concise Statement of Errors Complained of on Appeal,
we first note that he has raised forty four (44) errors. When a party raises an “outrageous” number
of issues in their 1925(b) statement, they have “deliberately circumvented the meaning and
purpose of Rule 1925(b) and have thereby effectively precluded appellate review of the issues they
now seek to raise.” Tucker v. R.M. Tours. 939 A.2d 343 (Pa. Super 2007), citing, KanteL_y...
Enstein. 866 A.2d 334 (Pa. Super. 2004). Despite the sheer number of errors raised, it appears that
they fall into two categories. First, Defendant appears to be rearguing his Preliminary Objections
-2-

2018-04083-RC

discussed above. Second, he appears to be raising issues regarding the underlying mortgage
foreclosure action. The former property owner cannot collaterally attack the Sheriffs sale held in
the foreclosure action in the subsequent ejectment action brought by the purchaser that bought the
property at the Sheriffs sale. Federal Nat. Mortg. Ass’n. v. Citiano. 834 A.2d 645 (Pa. Super.
2003).

Only when adequate notice was not given does the court lack jurisdiction to enter

judgment in the foreclosure action. Meritor Mortg. Corp.-East v. Henderson, 421 Pa. Super. 339,
617 A.2d 1323 (1992). For the foregoing reasons, we entered the Order from which this Appeal
has been taken.
BY THE COURT:

/

EL

JAC

C. CODY

L'

<c~Q <■-if l L.

II. 20

Date

-3 -

201B-04083-RC

1
P.J.

Type:

OPINION BY

Case Number:

2018-04083-RC

Case Title:

U S BANK NATIONAL ASSOCIATION (TRUSTEE) et al VS.
LIOTT, JAMES VINCENT
So Ordered

Is/ Jacqueline Cody

Electronically signed on 2019-06-12 15:30:31

page 4 of 4

2018-04083-RC

S
NOV 13 25,7
US BANK TRUST NATIONAL
ASSOCIATION
:

IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA

vs.

NO. 2015-09793-RC

•JAMES VINCENT.LIOTT
i/k/a JAMES LIOTT

—SS

CIVIL ACTION

;ng-V-| g

Jampfv r
E!qu,Ye' Forney for Plaintiff
Jame^ V, Liott, Defendant, Pro Se
i

ORDER OF COURT
AND NOW, this

^

u

rs:
co

“n

f

rn

O

o
day of November, 2017, upon review and consideration

of Defendant's Second Petition1

to Intervene, Stay and Set Aside the Sale of the

Subject Property Known as 778 Waterway Road, Oxford, PA 19363, it is hereby

i

ORDERED that said Petition is DENIED.
BY THE COURT;
i

^effr^y R. Sommer

J.

1

i
j

0nsf
IT ???a?DL,0tt rc'fi,ed the same Petition t0 lntervene, Stay
and
PA
+dh
8 i? °J SubKJSCt Pr°Perty Known as 778 Waterway Road, Oxford
corrected caption with'U.S °!LnkTJI^
a

£4^:~R^;hr

z&s * “ ^

process :sr: ss ;s asdua
.

we stand by our'original order of November 3 2017 wherebv

we

a;ayr,-.K:s?iissc
ajswssr.Kr.-Bwa
thfcPSLIin k
°f tbe appel.,ate court- We- therefore, decline to issue a rule on
this Petition because we have no jurisdiction to do so,

2018-04083-RC
APPENDIX-D

IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA

U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1,
Plaintiff

NO. 2018-04083-RC

v.
JAMES VINCENT LIOTT a/k/a
JAMES LIOTT,
Defendant

CIVIL ACTION-IN EJECTMENT
V-3

r-3

CONCISE STATEMENTS OF ERRORS COMPLAINED OF ON APPEAL
Pursuant to, Pa. R.A.P. Rule No. 1925(b)
Appellant, respectfully files these Concise Statements Of
Errors Complained Of On Appeal Pursuant to, Pa. R.A.P •

f

Rule No.

1925(b), and avers as follows:
FIRST ERROR COMPLAINED OF ON APPEAL
1. Plaintiff in this action had previously filed an action on
April 30, 2014, against the Defendant docketed at No. 2014-04051.
SECOND ERROR COMPLAINED OF ON APPEAL
2. On July 2, 2015, Plaintiff in this action filed a Praecipe
To Settle, Discontinue And End the action docketed at No. 201 404051, because Plaintiff wrongfully sued Defendant on April 30,
2014, causing injury to the Defendant, for which legal action to
recover damages may be made.
THIRD ERROR COMPLAINED OF ON APPEAL
3. Defendant in this action commenced a civil action on July 7,
2015, against Plaintiff in this action in this Court of Common
Pleas of Chester County, Pennsylvania docketed at No. 2015-05897,
of which was duly served by the County of Chester-Office of the

1
APPENDIX-E

Sheriff.
FOURTH ERROR COMPLAINED OF ON APPEAL
4. Plaintiff in this action then commenced a civil action
against the Defendant in this action on October 20, 2015, in the
Court of Common Pleas of Chester County, Pennsylvania docketed at
No. 2015-09793-RC despite the fact that Defendant’s prior., action
docketed at No. 2015-05897 remained pending, awaiting a response
to a discovery request.
FTFTH ERROR COMPLAINED OF ON APPEAL
5. In accordance with Pa. R.C.P • r Rule No. 1028(a)(6), the
Defendant's Preliminary Objection to Plaintiff's Complaint
docketed at No. 2015-09793-RC, Raising Pendency of Prior Action
of which was timely filed on May 11, 2016, should have been
SUSTAINED and Defendant's prior Court of Common Pleas of Chester
County, Pennsylvania action docketed at No. 2015-05897 alone
should have proceeded and Plaintiff s action docketed at No.
2015-09793-RC should have been DISMISSED.
The underlying mortgage foreclosure in this matter is docket
No. 2015-09793-RC and should have been DISMISSED.
SIXTH F.RROR COMPLAINED OF ON APPEAL
foreclosure action docketed
6. Plaintiff's underlying mortgage
barred by the Defendant's
at No. 2015-09793-RC should have been
Pennsylvania action
Court of Common Pleas of Chester County,
, 2.015,
docketed at No. 2015-05897, of which was filed on July 7
pursuant to Pa. R.C.P., Rule No. 1028(a)(6).
2

SEVENTH ERROR COMPLAINED OF ON APPEAL
7. This Court's order dated August 15, 2016, docketed at No.
2015-09793-RC of which overruled Defendant's Preliminary
Objections was not based on the intrinsic merits of Defendant's
Preliminary Objection.
TCTKHTH ERROR COMPLAINED OF ON APPEAL
8. Defendant appealed the Order of August 15, 2016 of which
overruled Defendant's Preliminary Objections to the Superior
Court of Pennsylvania.
HTWTH ERROR COMPLAINED OF ON APPEAL
9. The Honorable Jeffrey R. Sommer provided an Opinion pursuant
his honor asserted that the Order
to Pa. R.A.P. 1925(b) in which
from which Appellant appealed was a non—appealable interlocutory
order and that the appeal should be quashed, docketed at No.
2015-09793-RC.
The Superior Court agreed and quashed the appeal.
TENTH ERROR COMPLAINED OF ON APPEAL
2015-0979310. Allowing Plaintiff in its action docketed at No.
RC to continue in its action when Plaintiff became in violation
of the law on October 20, 2015, is not justice for the Plaintiff
nor is it justice on the part of the Defendant,
justice- • • • the administering of deserved reward or
administration of what is
punishment, • • « the maintainance or
just by law, as by judicial or other proceedings:
a court of justice. • • •
3

FIFTEENTH ERROR COMPLAINED OF ON APPEAL
available to any party and may be
15. Preliminary objections are
filed to any pleading. Pa. R.C.P. 1028(a).
SIXTEENTH ERROR COMPLAINED OF ON APPEAL
illegal Complaint In Ejectment
16. Plaintiff commenced this
2018-04083-RC.
action on April 24, 2018, docketed at No.
SEVENTEENTH ERROR. rnwiPT.ATNED OF ON APPEAL
filed on April 24,
17. The Complaint In Ejectment of which was
is illegal because the
2018, docketed at No. 2018-04083-RC
foreclosure docketed at No. 2015-09793-RC was
underlying mortgage
plaintiff illegally, and with scienter,
pending on appeal when the
April 24, 2018,
filed its Complaint In Ejectment action on
docketed at No. 2018-04083-RC.
ethhtEENTH

18. The fact that the

ERROR rnMPT.ATNED OF ON APPEAL
underlying mortgage foreclosure was

Complaint In Ejectment
pending on appeal when Plaintiff filed its
, docketed at No. 2018-04083-RC is
action on April 24, 201 8
the Court and in fact
unopposed by the plaintiff and unopposed by
Case Summary Report at docket
is clearly shown in this court s
2018-04083-RC, therefore the
2015-09793-RC
and
at
docket
No
No
Complaint In Ejectment should not have been filed.
ERROR rOMPLAINEn OF ON APPEAL
lacks the capacity to sue
19. The Plaintiff in this action
acknowledged that the underlying
because this Honorable Court has
2015-09793-RC was pending on
mortgage foreclosure docketed at No.
mtnetEENTH

5

appeal when the Plaintiff filed its Complaint In Ejectment action
on April 24, 2018, docketed at No. 2018-04083-RC by this court's
review of its Case Summary Reports on both cases docketed at
No. 2018-04083-RC and No. 2015-09793-RC.
TWENTIETH ERROR COMPLAINED OF ON APPEAL
20. Defendant filed his Preliminary Objections to Plaintiff's
Complaint In Ejectment more than ten [10] months ago.
TWENTY FIRST ERROR COMPLAINED OF ON APPEAL
21. Defendant also filed a Notice to Plead pursuant to Pa. R.C.P.
1026(a) along with the Preliminary Objections and with a
Verification.
TWENTY SECOND ERROR COMPLAINED OF ON APPEAL
22. Plaintiff was required to file an Answer to Defendant's
Preliminary Objections no later than June 3, 2018.
TWENTY THIRD ERROR COMPLAINED OF ON APPEAL
23. Plaintiff failed to timely file an Answer to Defendant's
Preliminary Objections.
TWENTY FOURTH ERROR COMPLAINED OF ON APPEAL
24. Failure of the Plaintiff to timely answer the preliminary
objections endorsed with a notice to plead constitutes an,
1029(b); Pyle v. Pennsylvania
admission of such facts. Pa. R.C.P
& C.3d 663 (Sommerset County 1979);
Nat'l ins. Co • f 11 Pa. D.
• r
Standard Mach. & Equip. Co. v. Hartford Accident & Indem. Co
70 Pa. D. & c.2d 110 (Fayette County 1974).
6

TWENTY FIFTH ERROR COMPLAINED OF ON APPEAL
25. Plaintiff's filing of its Answer to Defendant's Preliminary
Objections is Invalid.
TWENTY SIXTH F.SBfro COMPLAINED OF ON APPEAL
26. Pa. R.C.P

1028(c)(2) provides that the court

"shall

determine promptly all preliminary objections.
TWENTY SEVENTH ERROR COMPLAINED OF ON APPEAL
27. If this Honorable Court had determined promptly, ten [10]
, this Court
months ago , the Defendant's Preliminary Objections
matter of
would have DISMISSED this Complaint In Ejectment as a
foreclosure docketed at
law in light that the underlying mortgage
No

2015-09793-RC was pending on Appeal.

28. An

TWENTY EIGHTH ERROR COMPLAINED OF ON APPEAL
overlooked and essential fact of this matter is that the

Plaintiff did not file an answer

to the Defendant's Preliminary

Ejectment In Lieu of an
Objections to Plaintiff's Complaint In
Plaintiff always had
Answer for at least eight [8] months because
of the underlying mortgage
knowledge of the pending appeal
foreclosure docketed at No. 2015-09793-RC.
»ronflMTV NINTH ERROR rriMPT.ATNED OF ON APPEAL
the pending appeal of the
29. Plaintiff had knowledge of
foreclosure docketed at No. 2015-09793-RC,
underlying mortgage
Ejectment on April 24, 2018,
yet Plaintiff filed the Complaint In
pending appeal and that
with scienter having knowledge of the

7

this Court had no jurisdiction over the property matter.
THIRTIETH ERROR COMPLAINED OF ON APPEAL
30. An overlooked and essential fact of this matter is that when
this Complaint In Ejectment action was filed on April 24, 2018,
docketed at No. 2018-04083-RC, this Court had no jurisdiction in
the underlying mortgage foreclosure due to the pending appeal.
THIRTY FIRST ERROR COMPLAINED OF ON APPEAL
31. An overlooked and essential fact of this matter is that the
service of process was not only defective, but that the filing of
the Complaint In Ejectment action was illegally filed on April 24,
2018, docketed at No. 2018-04083-RC because the underlying
mortgage foreclosure action remained pending on appeal when the
Plaintiff illegally filed its Complaint In Ejectment with scienter
having knowledge of the pending appeal and that this Court had no
jurisdiction over the property matter.
THIRTY SECOND ERROR COMPLAINED OF ON APPEAL
32. Defendant filed Petitions to Intervene, Stay and Set Aside
the Sale of the subject property known as 778 Waterway Road,
Oxford, PA 19363.
THIRTY THIRD ERROR COMPLAINED OF ON APPEAL
33. The Honorable Jeffrey R. Sommer responded to said Petitions
to Intervene, Stay and Set Aside the Sale of the subject property
known as 778 Waterway Road, Oxford, PA 19363 and clearly states
in his Honor's foot notes that this court has no jurisdiction in

8

the 778 Waterway Road, Oxford, PA 19363 property matter because
the subject property matter is on Appeal.
THIRTY FOURTH ERROR COMPLAINED OF ON APPEAL
34. See: The Honorable Jeffrey R. Sommer's foot notes of his
Honor's orders, whereas his Honor clearly states that this court
has no jurisdiction in the property matter known as 778 Waterway
Road, Oxford, PA 19363.
THIRTY FIFTH ERROR COMPLAINED OF ON APPEAL
35. Plaintiff's Complaint In Ejectment erroneously asserts that
Plaintiff is entitled to eject Defendant.
THIRTY SIXTH ERROR COMPLAINED OF ON APPEAL
36. The deed was obtained through and as a result of an improper
and illegal sale.
THIRTY SEVENTH ERROR COMPLAINED OF ON APPEAL
37. The illegal sale was scheduled for October 19, 2017, of
which was Stayed on October 11, 2017, with Notice given.
THIRTY EIGHTH ERROR COMPLAINED OF ON APPEAL
38. The sale was Stayed due to the pending appeal in the Superior
Court of Pennsylvania, with Notice given to this Court.
THIRTY NINTH ERROR COMPLAINED OF ON APPEAL
39. The Superior Court of Pennsylvania notified this Court on
October 11, 2017, that the Superior Court of Pennsylvania has
jurisdiction in this property matter known as 778 Waterway Road,

9

Oxford, Pennsylvania 19363.
FOURTYETH ERROR COMPLAINED OF ON APPEAL
40. Defendant filed two Petitions to Intervene, Stay and Set
Aside the sale of the subject property with Rule to Show Cause in
November of 2017.
FOURTY FTBRT ERROR COMPLAINED OF ON APPEAL
41. The Honorable Judge Jeffrey R. Sommer Denied both of the
Defendant's Petitions to Intervene, Stay and Set Aside the sale
of the subject property because as Judge Sommer states in his
Honor's orders, that this Court has no jurisdiction to enter a
Rule to Show Cause regarding the Petitions due to the pending
appeal in the Superior Court of Pennsylvania.
FOURTY SECOND TCpnrre COMPLAINED OF ON APPEAL
201542. See: This Court's Case Summary Report at docket No.
09793-RC.
FOURTY THIRD BPPfiB COMPLAINED of ON APPEAL
which Plaintiff's Complaint In
43. Because the sale and deed on
Ejectment is based was obtained illegally, Plaintiff's claim is
barred by the doctrine of illegality.

44. The

FOURTY FOURTH ERROR COMPLAINED OF ON APPEAL
Plaintiff has unclean hands in this property matter and

Plaintiff has acted with scienter.

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1,

No. 600 MAL 2019

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.
JAMES VINCENT LIOTT A/K/A. JAMES
LIOTT,
Petitioner
ORDER
PER CURIAM
AND NOW, this 11th day of March, 2020, the Petition for Allowance
of Appeal is DENIED.

A True Copy /SS
As Of 03/11/2020
Attest: /SS
Chief Clerk
Supreme Court of Pennsylvania
APPENDIX G

